HHS/OIG-Audit--"Review of Unfunded Pension Costs of Health Care Service Corporation, (A-07-94-00762)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Health Care Service Corporation,"
(A-07-94-00762)
July 19, 1994
Complete Text of Report is available in PDF format
(1.64 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Health Care Service Corporation
(HCSC) had accumulated $1.2 million in pension costs as of January 1, 1992,
that are unallowable for Medicare reimbursement. Pension costs assigned to an
accounting period, but not funded by tax filing deadlines, may not be claimed
in subsequent accounting periods. The HCSC made contributions to the pension
trust fund for Plan Years 1986 through 1991. However, HCSC did not fully fund
the pension costs for Plan Years 1988 through 1990. We are recommending that
HCSC make the proper accounting adjustments to repay Medicare for the unallowable
unfunded pension costs.